4

&

bS" 4 J

No.

D

p p

r

!
c-‘~-

j

a

Supreme Court, U.S.
FILED

AUG 1 7 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

DAN KENNY DELVA

— PETITIONER

(Your Name)
vs.

UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT APPEALS ELEVENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Dan Kenny Delva. pro-se.

(Your Name)
FCI Williamsburg Medium
P.O. Box 340
(Address)
Salters, South Carolina 29590
(City, State, Zip Code)

(Phone Number)

•A

QUESTION(S) PRESENTED

Whether it is debatable Mr. Delva was denied a Sixth Amendment
right under the United States Constitution to effective assistance
of counsel when his trial counsel failed to file a motion to sever
Delva's trial from that of his brother Bechir?

ii

LIST OFPARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

iii

TABLE OF AUTHORITIES CITED
CASES

Buck v. Davis, 137 S.Ct. 759 (2017) ............................

PAGE NUMBER
3

Engle v. Linahan, 279 F.3d 926 (11th Cir. 2001) ...

10

Miller-El v. Cockrell, 537 U.S. 322 (2003) ..............

10,13

Slack v. McDaniel, 529 U.S. 473 (2000) ......................

10

Strickland v. Washington, 466 U.S. 668 (1984) .....

13

United States v. Delva, 2021 U.S. App. LEXIS 8721 .

1

United States v. Singleterry, 646 F.2d 1014 (5th
12

Cir. 1981)

STATUTES AND RULES
18 U.S.C. §1028A(a)(l)
18 U.S.C. §1029(a)(3)
18 U.S.C. §1029(b)(2)
28 U.S.C. §2253(c)(2)
28 U.S.C. §2255

OTHER

v

[ABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-9

REASONS FOR GRANTING THE WRIT

10-13

CONCLUSION

14

INDEX TO APPENDICES
APPENDIX A

Opinion of the U.S. Court of Appeals
Eleventh Circuit

APPENDIX B

Opinion of U.S. District Court
Southern District of Florida

APPENDIX C

Order of Rehearing En Banc Per Curiam

APPENDIX D

Extension of Time Granted

APPENDIX E

Petition for Rehearing

APPENDIX F

Application for Certificate of Appealability

APPENDIX G

Motion to Vacate, Set Aside or Correct
Sentence

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[X] reported at 2021 U.S. App« LEXIS 8721
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

A

The opinion of the United States district court appears at Appendix
the petition and is

iL_ to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 25, 2021
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: May 10, 2021
and a copy of the
order denying rehearing appears at Appendix__
[X] An extension of time to file the petition for a writ of certiorari was granted
to and including May 10, 2021
(date) on
April 16, 20zl ^ate)
in Application No.__ A D
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Under the Federal Constitution's Sixth Amendment, an accused's
right to the effective assistance of counsel is recognized not for the
right's own sake, but because of the effect that the right has on
the ability of the accused to receive a fair trial; absent some
effect of challenged conduct on the reliability of the trial process,
the Sixth Amendment guarantee is generally not implicated.
Pursuant to 28 U.S.C. §2255, a prisoner in federal custody
may move the court which imposed sentence to vacate, set aside or
correct the sentence if it was imposed in violation of federal
constitutional or statutory law, was imposed without proper
urisdiction, is in excess of the maximum authorized by law, or is
otherwise subject to collateral attack. 28 U.S.C. §2255.
A certificate of appealability will not issue absent a
substantial showing of the denial of a constitutional right."
28 U.S.C. §2253. When the district court denies relief on the
merits, a prisoner satisfies this standard by demonstrating that
reasonable jurists would find the district court's assessment of
the constitutional claims debatable or wrong. See Davis v. Buck,
137 S.Ct. 759, 773-74, 197 L.Ed.2d 1 2017).

3

STATEMENT OF THE CASE
A cooperating source, McKenzie Francois, told federal agents
that Bechir and Kenny Delva were conducting identity theft and tax
fraud operations out of a townhouse located within a gated community
complex in Miramar, Florida.

Acting on this information, the agents

set up an undercover operation with Francois, which targeted the
townhouse.

On June 9, 2014, Special Agents Kevin Deslauriers,

Brian Eustice, and Geofrey Goodwin from Homeland Security
Investigations and Special Agent Brad Cohen from the Internal
Revenue Service (IRS") met with Francois at a staging location.
The agents equipped Francois with a video and audio recording
device in a backpack and followed him to the townhouse in question.
One agent parked his car with a view of the townhouse's front door,
while other agents parked where they could observe the building's
rear.
At approximately 12:05 p.m., Francois entered the townhouse
and stayed for about an hour,
in the townhouse at that time.

Bechir, Kenny and others were present
While inside, Francois took several

pictures with his cell phone and texted them to the agents,

The

pictures showed: (1) individuals sitting on a couch using laptops;
(2) a money counter; (3) a white shoebox;; lid flipped upside down
with numerous debit cards and papers containing personal identifying
information inside setting on top of an ottoman; and (4) an AR-15
rifle leaning against a wall,

The personal identifying information

included individual's names, dates of birth, and Social Security
numbers, which is refer to as "PII."

4

The video recording covertly captured by Francois depicted
papers listing PII and debit cards vi s ihLe_on_the—ottoman—and—arifle leaning against a wall.
After leaving the townhouse, Francois met with the agents
again and confirmed that individuals in the townhouse were
conducting fraud activities.

Francois also told the agents that

individuals noticed a law enforcement officer outside the townhouse
and were worried that they were being surveilled.
At about 2:00 p.m., Agent Eustice returned to the townhouse
and saw several vehicles lined up in front of the residence. Agent
Eustice first saw an unidentified male put a bag into the back of
a white Camry and drive away from the townhouse.

Agent Eustice

tried to follow the car, but lost it at the front gate.

Agent

Eustice then saw another male, later identified as Bechir, walk
down a hallway to the townhouse door.

Bechir left the townhouse

carrying three white shoeboxes and a black backpack, which he
loaded into a Mercedes-Benz vehicle.

Bechir then departed the

townhouse (Unit 105, Building 2492) and drove along the main
Centergate Drive.

After driving around a curve in the road,

Bechir got off that main drag and turned into one of the other
apartment communities within the complex,
began walking away from the car.

Bechir parked and

By this time, two other agents

had joined Agent Eustice at the scene, and they approached Bechir
together. When asked, Bechir denied owning the Mercedes and refused
to provide the officers with any identification.

The agents then

handcuffed Bechir and eventually placed him in the back of a police
car.

Looking in the windows of the parked Mercedes, Agent Eustice

saw the three shoeboxes that Bechir. had loaded into the car.
5

He

noticed that one box was ajar and appeared to have credit cards
inside.
At approximately 4:15 p.m., Agent Deslauriers returned to the
scene after watching the undercover video,

Part of the recorded

conversation was a Haitian Creole, which Agent Deslauriers did not
understand.
When Agent Deslauriers arrived, Agent Eustice fully briefed
him on what had transpired with Bechir.

Agent Deslauriers

recognized Bechir from the undercover video,

When he looked in

the back of the Mercedes, he also saw the boxes,

The boxes looked

similar to the box lid Agent Deslauriers saw in Francois' pictures
and on the undercover video.
Based on the video, the pictures, and the information provided
by Francois, Agent Deslauriers believe there was PII and fraudulent
credit cards in the box.

Agent Deslauriers then opened the

Mercedes door, did a cusory search of the boxes, and found stacks
of credit cards and papers listing PII.

He took a few photogtaphs

and then replaced everything.
Agent Goodwin secured a search warrant and returned to the
townhouse around 8:30 p.m.

The agents then conducted a thorough

search of the Mercedes and the townhouse.

Within the three boxes

in the Mercedes, the agents found (1) hundreds of prepaid debit
cards, (2) Bechir's T-Mobile bill, (3) a bill addressed to Kenny,
and (4) documents containing PII, including notebooks, handwritten
lists, and Excel spreadsheets.
In the townhouse, the agents discovered a safe with $29,000
two money counters, and more credit cards and documents
The agents also found (1) tax guidelines from
6

Republic Bank and Trust Company, (2) documents listing an
electronic filing identification number ("F.FTN")_fo:r_Gu„s-tav=o_Gym-gof Cruz Tax Services, (3) a box of prepaid debit cards, (4) a
Playhouse Gentlemen's Club VIP card in Bechir's name, and (5) a
letter to Kenny from the IRS.

The agents also found two rifles

and a handgun, with corresponding magazines and rounds of
ammunition, and receipts showing that Kenny had purchased the
firearms.
After searching the townhouse, the agents apprised Bechir of
his Miranda rights and interviewed him.

Bechir told the agents

that all of the personal identify information (the PII) was his.
Bechir had obtained the information (the PII), which he called
"fos" and "infos," from an online database, using a login and
password.

Bechir told the agents that he used the personal

identifying information (the PII) to file fraudulent tax returns
online using an EFIN that he bought on the street for $5,000.
Bechir would receive the tax refunds on debit cards, which he
used at ATMs to withdraw cash.

Bechir admitted that the money the

agents found in the townhouse was from tax fraud,

He also said

the Mercedes belonged to him and Kenny had an Audi in the garage.
When asked about the firearms, Bechir told the agents that the guns
belonged to Kenny.
In his signed written statement, Bechir also admitted to
conducting fraud activities and keeping firearms at the townhouse
for protection from getting robbed:

7

I'm Bechir Delva, [and] freely and willingly admit
that the money I store in the safe and all the
fraud activities_h er.e_a.t _240-2—Ce n-t-eega-ke—Dr-i-v-e-.-----Miramar, Florida, Unit 105, are mine. The money
in the safe is from fraud and [i] have conducted
fraud here. I had legal guns here, rifles and
handguns. I kept them here for protection from
getting robbed. The Agents did not arrest or
question Kenny on June 9, 2014, as he had left
the townhouse by the time they searched it.
In August 2015, a federal grand jury charged both Bechir and
Kenny with: (1) one count of conspiracy is possess 15 or more
unauthorized access devices, i.e., Social Security numbers and
debit cards issued to other people, in violation of 18 U.S.C.
§1029(b)(2)("Count 1"); (2) one count of possession of 15 or more
unauthorized access devices, in violation of 18 U.S.C. §1029(a)(3)
("Count 2"); and (3) five counts of aggravated identity theft, in
violation of 18 U.S.C. §1028A(a)(1)("Counts 3-7").

The Delvas

pleaded not guilty, and the case proceeded to a joint trial, in
February 2016, which lasted five days.
During the trial Agents Deslauriers, Eustice, Goodwin, and
Cohen described the event on June 9, 2014, including testifying
as to Bechir's post-Miranda interview statements and written
confession.

The government introduced two Excel spreadsheets

that were found in Bechir's car.
Bechir testified that, after the Agents handcuffed him, they
eventually took him back to the townhouse, but he denied making
any statements to the Agents that day.

When confronted with his

written post-Miranda statement, Bechir explained that he was
scared and wrote exactly what an Agent told him to write.
On cross-examination, Bechir testified that he would go to
the townhouse once in a while to play videogames and basketball,
8

but he was rarely there.

When Bechir arrived on June 9, Francois'

counsins were on their computers, and the guns, papers, and debit
cards were in the townhouse.
The government then confronted Bechir with portions of the
undercover video.

After viewing the clip Bechir admitted to seeing

Kenny on the video recording, but denied that Kenny was using a
computer.
Bechir testified that Kenny bought the firearms found in the
townhouse, Bechir said that they were there for recreational use
at a gun-range-not to protect the stolen identities or tax fraud
proceeds.
Kenny did not testify and the defense rested,

This was the

only evidence the government presented to linked Delva and Bechir,

9

REASONS FOR GRANTING THE PETITION
"[A] certificate of appealability may issue... only, if the
applicant has made a substantial showing of the denial of a
constitutional right."

See 28 U.S.C. §2253(c)(2).

To make a

substantial showing of the denial of a constitutional right a
§2255 movant must demonstrate "that reasonable jurists could
debate whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed
further."

Miller-El v. Cockrell, 537 U.S. 322 (2003),; see also

Slack v. McDaniel, 529 U.S. 473 (2000); Eagle v. Linahan, 279 F.3d
926, 935 (11th Cir. 2001).
Delva has a Sixth Amendment right under the United States
Constitution to have effective assistance of counsel during a
critical stage of the proceeding.
Delva complained in his §2255 that his counsel failed to move
to sever his case from that of Bechir.
"[A] district court should grant a severance under Rule 14
only if there is a serious risk that a joint trial could
compromise a specific trial right of one of the defendants

or

prevent the jury from making a reliable judgment about guilt or
innocence."

Id.

It is debatable that reasonable jurists could debate whether
(or, for that matter, agree that) counsel's representation fell
below an objective standard of reasonableness, that there is a
reasonability probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different.
10

\

And Delva was prejudiced by counsel's failure to move to sever
his case from that of Bechir.
In his §2255 Delva asserted that he was prejudiced by being
tried jointly with his brother, Bechir.

Counsel knew that Bechir

was going to take full responsibility for the conduct charged. If
trial had been severed Bechir would have offered Delva had no
knowledge of the fraud.

The only evidence procedure against Delva

was that Delva had purchased legal firearms.
Delva argues a district court can grant a severance under
Rule 14 when there is a serious risk that a joint trial could
compromise a specific trial right of one of the defendants,

In

this case Bechir had admitted that although Delva bought firearms
for recreational use, he was the one who moved the assault rifle
from his parent's house to the townhouse.

Delva argues that given

this exculpatory evidence on his behalf, whatever need he may have
had to cross-examine Bechir evaporated.
Delva argues during opening statement in this case his counsel
told the jury that "Dan Delva and Bechir Delva are on trial
together.

You're gonna see Dan Delva never filed a false tax

return... Delva never possessed any of these cards...
gonna see that he filed any tax returns.

You're not

You're not gonna see that

he gathered or bought what they refer to as personal identifying
information... Mr. Delva was never found in possession of any of
the massive evidence that was collected from a car and from the
house.

See Trial Transcript a 199-201.

The government was allowed in introduce evidence that "the
brothers kept the firearms for their own protection" to link Delva
to Bechir as co-conspirators, and used this evidence to show Delva
11

participated in the alleged crimes.

This prejudicial attempt was

used to taint Delva's character through guilt by association.

A

defendant's guilt may not be proven by showing that he is related
to an "unsavory" person. See United States v. Singleterry, 646 F.2d
1014 (5th Cir. 1981).

The attempt to show guilt by association was

error.
The redacted statement given by Bechir had nothing to due with
his testimony that "the brothers kept the firearms for their own
protection."

Id.

Bechir's signed written statement in which the

government and trial counsel agreed to stipulate to what "Bechir
admitted to... keeping firearms at the townhouse from getting
robbed."

Id.

Delva and Bechir had been charged in a seven-count indictment,
with one count of conspiracy in violation of 18 U.S.C. §1029(b)(2),
one count of possession of 15 or more unauthorized access devices
in violation of 18 U.S.C. §1029(c)(3) and five counts of aggravated
identify theft in violation of 18 U.S.C. §1028A(a)(1).

Count One

of the indictment described the course of conduct of Delva and
Bechir as alleged overt acts of conspiracy.

Counsel was aware

doing a post-Miranda statement Bechir told the Agents that all of
the personal identifying information (the PII) was his.

Bechir

had obtained the information (the PII), which he called "fos" and
infos,

from an online database, using a login and password.

Bechir told the Agents that he used the personal identifying
information (the PII) to file fraudulent tax refunds online using
an EFIN that he bought on the street for $5,000.

Bechir would

receive the tax refunds on debit cards, which he used at ATMs to
withdraw cash. Bechir admitted that the money the Agents found in
the townhouse was from tax fraud. And when asked about the
12

* >

firearms, Bechir told the Agents that the guns belonged to Kenny.
_____ Delva submits that he has shown a specific prejudice resulting
from his trial counsel's failure to sever his case from that of
Bechir's and his ^Sixth Amendment claim can be decided in a
different manner.

Delva argues had his trial counsel moved to

sever Delva's trial and presented this exculpatory evidence that
counsel knew prior to trial there was a reasonable probability the
motion would have been granted.

Delva argues without the testimony

that "the brothers kept the firearms for their protection" being
entered into evidence there is no other evidence to link him to
Bechir in this case.

Delva argues that the district court and the

counrt of appeals denial conflict with Miller-El v. Cockrell, 537
U.S. 322 (2003)("reasonable debate" standard for a certificate of
appealability, and Strickland v. Washington, 466 U.S. 668 (1984)
(a defendant's right to effective assistance of counsel).
A certificate of appealability should issue on this denial
of Sixth Amendment constitutional right.

Respectfully submitted,

Dan Kenny Delva, pro-se.
Reg. No. 10150-104
FCI Williamsburg
P.0. Box 340
Salters, SC 29590

13

'y

*

»-

CONCLUSION

The certificate of appealability should be granted.

Respectfully submitted,
j—

Dan Kenny Delva , pro-se.
Reg. No. 10150- 10TT--------FCI Williamsburg
P.0. Box 340
Salters, SC 29590

14

